WAIVER

Supreme Court, U.S.
FILED

JUL 3 0 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

21-30
Tiffany & Bosco, LLP, et al

Cammie L. Marceaux

(Respondent)

V.

(Petitioner)

I DO NOT INTEND TO FILE A. RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Fidelity National Title Agency, Inc., and Lawyers Title Agency

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:
(Type or print) Name
0 Mr.

0 Mrs.

Ms.

Firm

Fidelity National Law Group

Address

2355 E. Camelback Road, Suite 615

City & State

Phoenix, Arizona

Phone

(602) 889-8150

0 Miss

Zip
Email

85016

brian.cosper@fnf.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Cammie L. Marceaux
420 Elaine Drive
Woodville, Texas 75979

RECEI
AUG 12 2 1
LERK
US.

